NO:
IN THE
SUPREME COURT OF THE UNITED STATES

Carline Curry

- PETITIONER

VS.
CITY OF MANSFIELD ET AL - RESPONDENTS

PROOF OF SERVICE
I, __Carline Curry_, do swear or declare that on this date
2021, as required by Supreme Court Rule 29 I have served the
enclosed PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and
On every other person required to be served, by depositing an
envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.

